        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Implementation of Beryllium Controls
at Lawrence Livermore National
Laboratory




DOE/IG-0851                                June 2011
                                  Department of Energy
                                    Washington, DC 20585
                                          June 17, 2011


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Implementation of Beryllium
                         Controls at Lawrence Livermore National Laboratory"

BACKGROUND

The Department of Energy has a long history of using beryllium – a metal essential for nuclear
operations and other processes. Exposure to beryllium can cause beryllium sensitization or even
Chronic Beryllium Disease, an often debilitating, and sometimes fatal, lung condition. In
December 1999, the Department established a Chronic Beryllium Disease Prevention Program
(Prevention Program) to reduce the number of workers exposed to beryllium at Department
facilities, minimize the levels of, and potential for, exposure to beryllium, and to establish
medical surveillance requirements to ensure early detection of the disease.

In response, Lawrence Livermore National Laboratory (Livermore), operated for the Department
by Lawrence Livermore National Security, LLC, implemented a Beryllium Prevention Program.
The National Nuclear Security Administration (NNSA) reviewed and the Department's Office of
Enforcement (Enforcement) investigated Livermore's Prevention Program in October 2008 and
July 2009, respectively. The NNSA review identified weaknesses in Livermore's Prevention
Program and the Enforcement investigation identified violations in the vital areas of identifying
the presence of beryllium in facilities, communicating beryllium hazards to workers, training
workers in beryllium control procedures, and monitoring personnel for medical effects of
exposures. As of November 30, 2010, Livermore reported that it had completed a number of
corrective actions designed to address weaknesses in these areas.

Due to the significant risk to the work force of beryllium exposure, we initiated this audit to
determine whether Livermore had fully implemented controls to resolve previously identified
weaknesses in its Prevention Program.

RESULTS OF AUDIT

Livermore expended significant effort and had completed a number of corrective actions
designed to improve its Prevention Program. However, in certain instances, all actions necessary
to completely resolve previously observed weaknesses had not been completed. Specifically, we
found that Livermore had not always:

        Identified the presence of beryllium and provided adequate notice to workers through
        the consistent use of facility maps, signs and labels;
        Utilized and documented reviews of historical records and interviews with employees to
        identify the presence of beryllium when completing the baseline inventory of beryllium
        contamination;

        Tested equipment to determine whether it was contaminated when beryllium was
        detected at a specific location in a facility;

        Established training requirements for all employees and ensured that managers and other
        employees attended training necessary to inform them of beryllium control procedures;

        Performed hazard assessments for 94 of its legacy facilities which may have housed
        beryllium operations in the past; and,

        Provided updates to its website to communicate the current status of onsite beryllium
        contamination to workers.

We concluded that the issues we observed occurred, at least in part, because the Livermore Site
Office's (Site Office) oversight efforts during the implementation of Livermore's corrective
actions were not completely effective. According to Site Office officials, they exercised required
due diligence over the implementation of Livermore's corrective actions. However, we found
that neither the Site Office nor Livermore corrective action verification and closure processes
ensured that initiated actions were always fully implemented. For example, Livermore officials
told us that they had completed corrective actions to communicate beryllium hazards, in part,
through the use of facility maps. However, we determined that although it had developed the
maps, Livermore had not posted the maps in any of the seven known beryllium facilities that we
toured. Both the Site Office and Livermore had not taken action to verify that facility maps were
actually used and posted to alert workers to the presence of beryllium. Rather, Site Office and
Livermore officials considered the corrective action closed based solely on the development of
the maps. Site Office and Livermore officials explained that actual field inspection of corrective
action implementation was not required as part of the verification process prior to closing a
corrective action. These officials stated that, in general, actual field inspections are part of
effectiveness reviews and occur 6 to 12 months after corrective action closure to allow sufficient
time for implementation. NNSA management acknowledged in comments on a draft of our
report that beryllium program concerns raised during this audit resulted from procedural
problems that inadvertently combined the corrective action verification process with
effectiveness reviews.

Symptomatic of problems with the process, we found that inspections had not been performed
for corrective actions that had been closed for over six months. Specifically, the Site Office and
Livermore had not planned to perform an effectiveness review to evaluate the implementation of
corrective actions, such as the use and posting of facility maps, until March 2011, or
approximately 19 months after closing the facility map and other corrective actions. Based on
the results of our review, we concluded that more timely inspections would have alerted Site
Office management that further improvements were needed in Livermore's Prevention Program.



                                                2
Livermore did not always mitigate employees' risk of exposure to beryllium. As noted in
NNSA's 2008 review of Livermore's beryllium activities, without an effective Prevention
Program, there remains an unacceptable level of risk to workers from potential exposure in
known legacy facilities. In fact, in October 2010, NNSA took action against Livermore for its
failure to properly manage risks to workers from beryllium and announced a consent order under
which Livermore paid $200,000 to settle findings identified during the July 2009 Enforcement
investigation. Additionally, as a result of the consent order, Livermore agreed to correct a
number of outstanding findings from the 2009 Enforcement investigation.

Beryllium exposure is not a trivial matter, potentially affecting the health and safety of the
Department's workforce. In fact, since 2007, Livermore has had at least seven beryllium-related
reportable events, two of which occurred within the last year. In addition, Livermore has had 27
beryllium sensitization cases and 2 Chronic Beryllium Disease cases. Livermore officials told us
that the rate of beryllium sensitization was consistent with, and in the case of Chronic Beryllium
Disease significantly lower than, comparable data across the Department. Livermore also noted
that there was good reason to believe that the increase in reported cases may be attributable to
the fact that it had improved its Prevention Program by increasing surveillance testing of
workers. We are unable to affirm or dispute Livermore's assertions in this area, but concluded
that sustained, aggressive action is necessary to ensure that the incidence of sensitization and
disease are eliminated or kept to the minimum number possible.

Livermore had developed some positive corrective procedures to strengthen controls in its
Prevention Program. According to Livermore officials, they have analyzed all beryllium-related
events, internal and external audits, and worker feedback; and have developed and, for the most
part, implemented comprehensive corrective actions to improve worker safety. While Livermore
officials told us that they planned to implement additional corrective actions to address the issues
we identified, our findings suggest that additional effort is required to ensure complete resolution
of these weaknesses. As such, we made several recommendations designed to help address these
issues.

MANAGEMENT REACTION

Management did not dispute the findings but indicated that it did not agree with our conclusions
as they related to oversight weaknesses at the Site Office. Management also disagreed with what
it believed was the implication in the report that, despite Livermore's corrective actions, worker
exposure to beryllium and/or incidence of beryllium disease had increased. Further,
management indicated that the report presented an incomplete characterization of progress and
accomplishments under Livermore's corrective action program. Yet, management expressed
partial concurrence with the findings and recommendations.

Management agreed with our recommendations for ensuring that Livermore performs various
actions as opportunities for continuous improvement and stated it had already taken corrective
action or will take additional corrective action. Management's comments are included in their
entirety in Appendix 3.




                                                 3
AUDITOR RESPONSE

While management's comments were, for the most part, generally responsive to our
recommendations, we disagree with management's assertions regarding our conclusions. As
previously noted, we found that the Site Office had not provided effective oversight since the
verification and closure processes did not ensure that corrective actions had actually been
implemented. NNSA, in its comments, acknowledged that procedural problems with its
verification and effectiveness review processes contributed to implementation issues. We remain
convinced by the facts developed during the audit that timely verification of completed actions
and a determination of effectiveness would have alerted the Site Office that further
improvements were needed in Livermore's Prevention Program.

Finally, we clarified sections of our report related to the incidence of beryllium exposure and
beryllium-related disease at Livermore and recognized Livermore's progress in its corrective
action program. We also acknowledged, as pointed out in management comments, that a joint
Federal and contractor effectiveness review of Livermore's Prevention Program had been
completed in March 2011. That review found that Livermore had made significant
improvements in achieving the objectives of the beryllium regulation, but expressed concerns
about whether the changes would be enduring. Furthermore, of the 44 deficiencies reviewed, the
Laboratory/Departmental Review Team found that 20 percent of the actions taken to resolve the
deficiencies were only partially effective. Thus, additional improvements in Livermore's
Prevention Program are still necessary.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Associate Deputy Secretary
    Chief of Staff
    Chief Health, Safety and Security Officer
    Manager, Livermore Site Office




                                               4
AUDIT REPORT ON THE IMPLEMENTATION OF BERYLLIUM
CONTROLS AT LAWRENCE LIVERMORE NATIONAL LABORATORY


TABLE OF
CONTENTS

Beryllium Corrective Actions

Details of Finding .......................................................................................................................    1

Recommendations ........................................................................................................................ 10

Comments .................................................................................................................................... 11

Appendices

1. Objective, Scope and Methodology ........................................................................................ 14

2. Related Reports ...................................................................................................................... 15

3. Management Comments ........................................................................................................ 16
Implementation of Beryllium Controls at Lawrence Livermore
National Laboratory

Beryllium Corrective   We found that even though Lawrence Livermore National
Actions                Laboratory (Livermore) reported that it had closed a number of
                       corrective actions designed to correct deficiencies in its
                       Chronic Beryllium Disease Prevention Program (Prevention
                       Program), needed controls were not always fully implemented.
                       For example, our test work revealed that Livermore had not
                       always:

                              Identified the presence of beryllium and provided
                              adequate notice to workers through the consistent use of
                              facility maps, signs and labels as required in corrective
                              actions;

                              Utilized and documented reviews of historical records
                              and interviews with employees as required by the
                              Department of Energy (Department) to identify the
                              presence of beryllium in completing the baseline
                              inventory of beryllium contamination;

                              Tested equipment to determine whether it was
                              contaminated when beryllium was detected at a specific
                              location in a facility; an acceptable method based on
                              Departmental expectations;

                              Established training requirements for all employees and
                              ensured that managers and other employees attended
                              training necessary to inform them about beryllium
                              control procedures;

                              Performed hazard assessments for 94 of its legacy
                              facilities which may have had beryllium operations in
                              the past; and,

                              Provided updates to its website to communicate the
                              current status of beryllium contamination onsite to
                              workers.

                                   Communication of Beryllium Hazards

                       Livermore officials told us that they had completed corrective
                       actions to communicate beryllium hazards through the use of
                       facility maps, signs and labels. Our test work revealed,
                       however, that such was not always the case. Livermore
                       required that facility maps identifying beryllium areas be
                       posted in known beryllium facilities and that standardized signs

Page 1                                                             Details of Finding
         and labels be used to alert workers to beryllium areas. As a
         result, Livermore developed 19 facility maps to communicate
         known or potential areas of beryllium hazards. It also revised
         its policies and procedures to require the posting of
         standardized signs and labels alerting workers to beryllium
         hazards. However, we determined that facility maps, signs and
         labels were not being fully utilized and, therefore, were not
         effective in alerting employees to the potential for beryllium
         exposure.

                             Posting of Facility Maps

         To illustrate, we toured seven known beryllium facilities,
         escorted by various Livermore facility and health and safety
         personnel, and determined that maps were not posted in any of
         the facilities we visited. Facility maps are used to identify
         beryllium areas and are also used in conjunction with beryllium
         sign postings to alert workers to the known presence of
         contaminated work spaces before workers enter into the area.
         According to the tour escorts, with the exception of
         Livermore's subject matter expert (SME), they had not seen the
         facility maps and were unaware of their existence.

         We also found that the facility maps that Livermore developed
         did not always identify the true extent of beryllium
         contamination. For instance, the facility map for Building 231
         documented beryllium contamination areas in the first floor of
         the building; however, there was no facility map created for the
         second floor. This is significant given that beryllium
         contamination is known to exist on the second floor. In fact,
         this area was the location of the most recent potential beryllium
         exposure that occurred in September 2010, an event in which a
         technician was potentially exposed to beryllium while
         performing preventative maintenance on facility-related
         equipment.

         Further, we observed that facility maps did not accurately
         identify areas already posted as containing beryllium. We
         observed and Livermore personnel confirmed that beryllium
         was stored in rooms 1145 and 157 of Building 141; however,
         the facility map did not identify these rooms as beryllium
         storage areas. Accordingly, workers were not warned of
         potential beryllium hazards before entering into these areas.
         Livermore's SME told us that he will work to ensure rooms and
         areas are posted correctly and in accordance with beryllium



Page 2                                                  Details of Finding
         policies and procedures. In addition, the SME stated that he
         will ensure that the maps are updated to accurately reflect
         actual beryllium areas in the noted facilities.

                      Posting of Beryllium Signs and Labels

         Although Livermore updated its policies and procedures to
         require the posting of standardized signs and labels to alert
         workers to beryllium hazards, our review showed inconsistent
         implementation of these policies and procedures. Livermore
         updated its policy to require that beryllium areas are identified
         with one of five applicable signs: Beryllium Contamination
         Area, Beryllium Storage Area, Beryllium Buffer Area,
         Beryllium Work Area, and Regulated Beryllium Work Area.
         In addition, Livermore's policy requires that access points to
         legacy contamination areas be posted appropriately.

         Our tours of 10 facilities, however, revealed that warning signs
         were missing or inaccurate. Livermore did not post signs for 3
         rooms in Building 253 where beryllium samples were analyzed
         or in Building 255 where Livermore personnel confirmed that
         beryllium contamination was detected. In response to our
         observation, Livermore posted the appropriate signs shortly
         after our tours. The appropriate signs are necessary to properly
         inform Livermore employees regarding the potential for
         beryllium exposure and ensure that employees obtain the
         correct training and take necessary precautions before entering
         the various operational areas.

         In another example, although Livermore officials knew that a
         mechanical room in Building 231 had beryllium contamination,
         beryllium warning signs were not posted at all access points to
         alert employees of the hazards. According to a Livermore
         report into a potential beryllium exposure, the inadequate
         signage resulted in potential exposure of an employee who
         entered the mechanical room to perform authorized
         maintenance on an air conditioning unit.

         During our tours, we also noticed that Livermore had not
         always affixed appropriate warning labels on beryllium-
         contaminated waste as required by its updated policies and
         procedures. For example, during our tour of Building 253, we
         and our tour escorts observed three containers with beryllium-
         contaminated waste that were not labeled correctly. Although
         the waste containers were labeled "Caution Radioactive
         Material," there were no labels to warn the employees handling

Page 3                                                 Details of Finding
         the waste that it was contaminated with or contained beryllium.
         Livermore's policy stated that organizations performing
         beryllium work at each facility will post and control their own
         areas. However, beryllium processing organizations we spoke
         with were not aware of the requirements or their roles and
         responsibilities. For example, the organization that processes
         beryllium samples was not aware of its responsibility to affix
         the beryllium labels on the waste containers because that task
         had been traditionally performed by the waste management
         group on its behalf. In response to our audit, Livermore started
         affixing the beryllium labels to the waste containers in
         November 2010.

                Completion of the Baseline Beryllium Inventory

         While Livermore noted that it had implemented a corrective
         action to update its policies and procedures to mandate the use
         of information sources required by the Department in
         developing a baseline beryllium inventory, we found that
         Livermore had not consistently utilized and documented
         reviews of historical records and interviews with employees to
         update its baseline inventory. In 2000, the Department
         required each site to develop a baseline inventory. This
         inventory was to be completed within two years, by 2002.
         Also, when developing the baseline inventory, the Department
         required contractors to: (1) review current and historical
         records; (2) interview workers; (3) document the characteristics
         and locations of beryllium at the facility; and, (4) conduct air,
         surface, and bulk sampling.

         We noted, however, that Livermore did not always utilize and
         document historical record reviews and personnel interviews
         for the facilities identified through its baseline inventory.
         Specifically, as of April 2010, Livermore had not reviewed
         historical records for 50 facilities and had not interviewed
         workers for 178 facilities that were listed in its facilities
         inventory. During the course of the audit, we raised the
         concern that by not utilizing and documenting all the required
         data gathering methods some contaminated areas may not have
         been identified. We also noted that without a complete
         baseline inventory, key personnel cannot perform accurate
         hazard assessments or adequately identify potentially
         hazardous areas. As a result of our concerns, Livermore
         officials told us that they performed additional work by
         reviewing historical records and interviewing workers to



Page 4                                                Details of Finding
         update and complete the baseline inventory in November 2010
         – eight years after they were required to be completed.
         Through this work, Livermore was able to identify some
         additional facilities where beryllium work may have been
         performed in the past.

                              Testing of Equipment

         Livermore reported that it had completed corrective actions to
         characterize facilities as part of the baseline inventory.
         However, we noted that Livermore did not always test
         equipment to determine whether it was contaminated when
         beryllium was detected at specific locations in a facility, as
         expected by Department officials responsible for beryllium
         policy. According to the Code of Federal Regulations Title 10,
         Part 850 (Regulation), sites are required to develop a baseline
         inventory of the locations of beryllium operations and other
         locations of potential beryllium contamination. In developing
         its baseline inventory, Livermore was required to conduct air,
         surface, and bulk sampling in contaminated areas. Further, the
         Department's Beryllium Program Implementation Guide
         (Implementation Guide), for use with the Regulation, states
         that at a minimum the sampling plan should address where
         samples are to be taken based on where beryllium was stored,
         transported, and used at the facility as well as consideration of
         ventilation and airflow patterns and worker movement patterns.
         Finally, while testing equipment is not specifically required by
         the Regulation, testing other locations of potential beryllium
         contamination, such as equipment, enables proper work
         controls to be set to minimize worker exposure.

         Livermore, however, did not always test equipment in legacy
         facilities as part of conducting the baseline inventory. For
         instance, when a sample tested above the release criteria in a
         facility, Livermore did not always test equipment located in
         known areas of contamination. We compared equipment
         inventories to sampling details at two beryllium facilities and
         found that equipment in two areas with known contamination
         was not tested. However, according to Department and
         Livermore Site Office (Site Office) officials, based on their
         expectations of the Implementation Guide, testing of
         equipment should be included when other potential locations of
         beryllium exposure need to be tested. This is significant given
         that two previous Office of Inspector General reports,
         Beryllium Controls at the Oak Ridge National Laboratory
         (DOE/IG-0737, September 2006) and Beryllium Surface

Page 5                                                Details of Finding
         Contamination at the Y-12 National Security Complex
         (DOE/IG-0783, December 2007) found that contaminated
         equipment was a source for potential worker exposure. As
         such, although not specifically required by the Regulation,
         based on the Department's expectations, equipment should be
         included when facilities are tested for potential beryllium
         contamination.

                                Beryllium Training

         Livermore indicated that it had completed corrective actions to
         improve training in industrial hygiene activities. Our review,
         however, revealed that the corrective actions were not fully
         implemented. For example, Livermore developed initial
         qualification standards and incorporated requirements for new
         employees into its policies and procedures; however, the
         standards did not include specific training courses for
         Hygienists who perform hazard assessments and needed
         requalification, as required by Livermore's requalification
         requirements. Livermore officials told us that they revised the
         qualification standards to identify specific training courses for
         Hygienists after we brought the issue to their attention.

         In another case, Livermore established training requirements
         for Environmental, Safety & Health (ES&H) employees when
         personnel changes occurred in beryllium facilities. Although
         Livermore developed new procedures for the facility and/or
         personnel turnover process, including the training
         requirements, Livermore did not ensure that all employees
         were informed about the procedures. In one instance, we found
         that approximately 25 percent of ES&H managers did not
         attend the training class on the new procedures for personnel
         change over. Furthermore, we concluded, that the training
         should have been extended to facility management to ensure
         that facility hazards were communicated and transferred to new
         personnel. Without providing training to all applicable
         managers, there is a risk that the new requirements will not be
         implemented as intended and incoming employees would not
         be aware of the beryllium hazards that exist in a facility.

                        Completion Hazard Assessments

         Livermore could not demonstrate that it had corrected
         weaknesses in its assessments of hazards in its legacy facilities.
         In response to National Nuclear Security Administration's
         (NNSA) 2008 report and the Department's Office of

Page 6                                                 Details of Finding
         Enforcement 2009 report, Livermore included a requirement in
         its Prevention Program to perform hazard assessments for all
         operations, both existing and historical, identified in the
         baseline inventory. Livermore, however, could not
         demonstrate, through documented reports of results, that
         facility-based hazard assessments had been performed for the
         94 legacy facilities identified in its baseline inventory. The
         Department pointed out in its 2009 report that without
         conducting the hazard assessments Livermore could not
         identify, analyze or control hazards associated with potential
         exposure to airborne and surface beryllium.

                        Access to Beryllium Information

         Additionally, Livermore had not fully implemented corrective
         actions needed to address a 2008 NNSA finding that Livermore
         needed to effectively communicate the current status of the
         baseline inventory so that employees could determine whether
         their work activities placed them at risk for beryllium
         exposures. While Livermore took some actions to utilize
         facility maps, signs and labels, it did not update the intranet
         website that is used to communicate information about changes
         in the beryllium inventory to workers in a timely manner.
         Specifically, the website did not include information such as
         specific locations of contamination and the current status of
         beryllium facilities.

         To illustrate, although the website is used by Livermore to
         communicate information about changes in the beryllium
         inventory to workers, we noted that the website was not
         updated for more than a year. Also, we observed that the
         website does not indicate the specific locations of beryllium
         contamination within a facility, a best management practice at
         other Department sites. In addition, Livermore's website did
         not accurately reflect the current status or changes to the
         location of beryllium work. For example, beryllium work
         performed in a room located in Building 151, previously
         identified as a beryllium work area, was moved to a new
         location. However, Livermore's website did not reflect the
         changes made within this room. During a discussion with the
         SME, he stated that the website would be updated to include
         the current status of the baseline inventory. Accordingly, a
         corrective action was revised in August 2010, to include
         posting of the beryllium inventory records to the website. The
         update was completed in November 2010.



Page 7                                               Details of Finding
Beryllium Controls   We concluded that the Site Office's oversight efforts during the
                     implementation of Livermore's corrective actions were not
                     completely effective. Neither the Site Office's nor Livermore's
                     corrective action verification and closure process ensured that
                     actions were always fully implemented.

                              Site Office Verification and Closure Process

                     The Site Office had not ensured that Livermore's corrective
                     actions were actually implemented. Specifically, the Site
                     Office had not always applied useful tools, such as walk-
                     through examinations and field observations, as contained in its
                     work instruction for verifying the implementation of corrective
                     actions. For example, a Site Office official stated he did not
                     verify that the facility maps were posted in the facilities.
                     Rather, Site Office personnel told us that they primarily
                     reviewed documents in Livermore's Contractor Assurance
                     System, specifically Livermore's corrective action tracking
                     system. Site Office officials explained that inspections, such as
                     walk-throughs, are only one tool to verify implementation of a
                     corrective action and that they are not always necessary and are
                     not required by work instructions. Rather, Site Office officials
                     said they rely on the judgment of SME to determine whether an
                     inspection is required. Site Office officials also told us that an
                     effectiveness review is scheduled to be performed in 2011,
                     which will provide an opportunity to verify implementation of
                     corrective actions and their effectiveness. Based on the results
                     of our review, we concluded that more timely inspections
                     would have alerted Site Office management that further
                     improvements were needed in Livermore's Prevention
                     Program.

                               Livermore Verification and Closure Process

                     Livermore did not always perform timely inspections of the
                     implementation of corrective actions prior to closing them in
                     the corrective action tracking system. According to
                     Livermore's procedure, Issues and Corrective Action
                     Management, after an action owner completes a corrective
                     action, a verifier reviews information entered into the
                     corrective action tracking system to confirm that the action
                     taken is consistent with the proposed action. However,
                     Livermore closed actions based on review of documentation in
                     the corrective actions tracking system without inspecting the
                     implementation of the actions. For example, the corrective
                     action for the facility maps was closed based on creation of the

Page 8                                                             Details of Finding
                     maps, but without the field inspections to determine whether
                     the maps were actually posted. In another example, the
                     corrective actions related to training were closed based on the
                     establishment of training requirements, but without
                     determining whether all employees were actually trained. By
                     not performing field inspections, Livermore did not have
                     adequate assurance that these corrective actions were
                     implemented.

                     Site Office and Livermore officials pointed out that actual field
                     inspections occur 6 to 12 months after corrective action closure
                     as part of effectiveness reviews to allow sufficient time for
                     implementation. We found, however, that inspections had not
                     been performed for corrective actions that had been closed for
                     over six months. Specifically, the Site Office and Livermore
                     had not planned to perform an effectiveness review to inspect
                     the implementation of corrective actions, such as the use and
                     posting of facility maps, until March 2011, or approximately
                     19 months after closing the facility map and other corrective
                     actions.

Beryllium Exposure   By not fully addressing previously identified weaknesses,
                     Livermore did not always mitigate employees' risk of exposure
                     to beryllium. The Department's 2009 investigation of
                     Livermore's Prevention Program stated that without effective
                     safety controls, Livermore was still not adequately protecting
                     its workers from beryllium exposure. In October 2010, NNSA
                     and the Department issued a consent order to Livermore's
                     management and operating contractor for the deficiencies
                     identified in the Department's 2009 investigation. Under the
                     terms of the consent order, Livermore agreed to perform an
                     evaluation of all deficiencies identified in the report,
                     implement corrective actions, and remit a $200,000 remedy to
                     the Department. As part of the consent order, Livermore has
                     agreed to correct a number of outstanding findings from the
                     2009 investigation.

                     Beryllium exposure causes a significant concern as research
                     has shown that it can cause sensitization and potentially lead to
                     Chronic Beryllium Disease. In fact, since 2007, Livermore has
                     had at least seven reportable events, two of which occurred
                     within the last year. In addition Livermore has had 27
                     beryllium sensitization cases and 2 Chronic Beryllium Disease
                     cases. Livermore stated that since 2007, it has increased
                     voluntary enrollment in its medical surveillance program.
                     Thus, the increase in the number of personnel being tested has

Page 9                                                            Details of Finding
                  resulted in the increase of cases reported. While Livermore
                  had taken some positive corrective actions to strengthen
                  controls, ineffective implementation and inadequate oversight
                  of corrective actions have resulted in deficiencies going
                  unresolved, potentially allowing for similar events to recur
                  such as the most recent potential exposure of a technician
                  which occurred in September 2010. Such recurrence could
                  have a significant impact on worker safety and increase the risk
                  of beryllium sensitization and disease.

                  Livermore officials told us that the rate of beryllium
                  sensitization is consistent with, and in the case of Chronic
                  Beryllium Disease is significantly lower than, comparable data
                  across the Department. Livermore also noted that there is good
                  reason to believe that the increase in reported cases may be
                  attributable to the fact that it had improved its program by
                  increasing surveillance testing of workers. We are unable to
                  affirm or dispute Livermore's assertions in this area, but
                  continue to believe that sustained, aggressive action is
                  necessary to ensure that the incidence of sensitization and
                  disease are eliminated or kept to the minimum number
                  possible.

RECOMMENDATIONS   We recommend that the NNSA Administrator strengthen the
                  Site Office's oversight role by regularly performing evaluations
                  of completed actions to ensure the full implementation of
                  corrective actions.

                  Additionally, we recommend that the Site Office Manager
                  ensure that Livermore:

                     1. Performs timely inspections to verify the
                        implementation of corrective actions prior to the
                        closure of an action;

                     2. Posts maps and standardized signs and labels in
                        beryllium facilities and work areas;

                     3. Samples equipment for potential beryllium
                        contamination;

                     4. Implements required beryllium training;

                     5. Documents and completes hazard assessments at legacy
                        facilities; and,

                     6. Updates the beryllium information on its intranet
                        website as operations and activities change.


Page 10                                                      Recommendations
MANAGEMENT   Management partially concurred with the findings and
COMMENTS     recommendations. Management did not agree with our
             conclusion and recommendation regarding Site Office
             oversight during the implementation of Livermore's corrective
             actions. Although management stated our review was valuable
             in identifying how the Site Office inadvertently combined the
             verification process with effectiveness reviews, they did not
             believe insufficient oversight caused the situation; rather, they
             stated that this procedural problem led to some confusion
             among Federal staff when performing oversight activities. In
             addition, management also stated that the Site Office actively
             pursued improving Livermore's Prevention Program and their
             corrective action process; a process which included over 90
             corrective actions and touched hundreds of facilities.
             Management further noted that it was not possible to verify and
             judge effectiveness of every single corrective action taken by
             Livermore. With a small staff available to monitor progress on
             a wide front, some corrective actions received less prompt
             attention than others.

             According to management, their effectiveness review process
             met the standards of Department Guide 414.1-5, Corrective
             Action Program Guide (Guide). Management stated that it was
             inappropriate to characterize the Site Office's compliance with
             the Guide as ineffective implementation or inadequate
             oversight and requested that those characterizations be
             removed from the report. Additionally, management stated
             that the report inaccurately suggested that worker exposure to
             beryllium and/or incidence of beryllium disease has increased,
             despite all of the corrective actions taken or in progress by
             Livermore. Further, management reported that a joint federal
             and contractor effectiveness evaluation of Livermore's
             improvements was successfully completed in March 2011, in
             accordance with the Guide.

             Finally, management indicated that our report presented an
             incomplete characterization of progress and accomplishments
             under Livermore's corrective action program and that, in one
             case, overstated the characterization of an Office of
             Enforcement finding.

             Management agreed with the remaining recommendations as
             opportunities for continuous improvement and stated they had
             already taken corrective action or will take additional
             corrective action. Management comments are included in their
             entirety in Appendix 3.



Page 11                                                          Comments
AUDITOR COMMENTS   While management's comments were, for the most part,
                   generally responsive to the recommendations, we disagree with
                   management's assertion that our conclusion was inaccurate and
                   should be removed from the report for the reasons provided
                   below.

                   We concluded that the Site Office's oversight efforts were not
                   always effective in that its verification and closure processes
                   did not ensure that corrective actions were actually
                   implemented. While the Site Office has taken positive steps to
                   update their work instructions and make them more clear; it is
                   our opinion that action must be taken to ensure that corrective
                   actions are implemented prior to closure. For example, in
                   some situations, a walk through or field observation should be
                   conducted to verify the action was executed and that the action
                   taken was consistent with the planned action.

                   Management further stated that their effectiveness review
                   process followed the Guide. According to the Guide, managers
                   should continuously direct, prioritize, and sufficiently staff
                   activities to ensure planned corrective actions are implemented.
                   However, in our opinion, the Site Office did not meet the intent
                   of the Guide in providing oversight of Livermore's Prevention
                   Program since, as the Site Office indicated, it had a small staff
                   for this activity. We acknowledge that the Site Office has
                   faced reduced personnel levels in the last few years, including
                   the loss of its Industrial Hygienist in 2009. While the Site
                   Office has since hired a new Industrial Hygienist; this person
                   has been on intern assignments for the last year. We are
                   encouraged that the Site Office plans on hiring a full-time
                   Industrial Hygienist to help address safety concerns.
                   Additionally, we found that the Site Office did not prioritize
                   verification and determination of effectiveness for certain
                   corrective actions to ensure that they were implemented as
                   suggested by the Guide.

                   Management also stated our report suggested that every single
                   action taken by Livermore to correct systemic shortcomings
                   must be individually verified and judged for effectiveness
                   which was not practically possible. According to the Guide,
                   upon implementation of a corrective action, the next step is to
                   verify the successful completion of each corrective action and
                   determine its effectiveness. Further, the Guide stated that a
                   corrective action effectiveness review should be initiated as
                   soon as practical. As corrective actions for each finding are
                   completed, the effectiveness review for that finding should be



Page 12                                                                Comments
          conducted. Further, a specified time for completion of the
          corrective action effectiveness review should also be
          determined by the corrective action effectiveness review
          manager (i.e., six months after all corrective actions for all
          findings have been completed). The Site Office and
          Livermore, however, had not planned to perform an
          effectiveness review until March 2011, 19 months after the
          completion date of some corrective actions. In our opinion,
          timely verification of completed actions and a determination of
          effectiveness would have alerted the Site Office that further
          improvements were needed in Livermore's Prevention
          Program.

          Further, management stated that the report inaccurately
          suggests that worker exposure to beryllium and/or incidence of
          beryllium disease has increased, despite all of the corrective
          actions taken or in progress by Livermore. As noted
          previously, we are unable to affirm or dispute Livermore's
          assertions in this area, but agree with management that
          beryllium safety is a top priority and aggressive actions to
          correct identified problems are necessary to ensure that such
          cases are eliminated or kept to the minimum number possible.

          To that end, a joint federal and contractor effectiveness review
          of issues identified with Livermore's Prevention Program was
          completed in March 2011. The effectiveness review found that
          Livermore has made significant improvements in achieving the
          objectives of the Regulation, but had concerns about whether
          the changes would be enduring. Of the 44 deficiencies
          reviewed, the Review Team found that 20 percent of the
          actions taken to resolve the deficiencies were partially
          effective. Thus, improvements still need to be made in
          Livermore's Prevention Program.

          Finally, we clarified sections of our report to more fully
          recognize Livermore's progress in implementing its corrective
          action program.




Page 13                                                       Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether Lawrence
              Livermore National Laboratory (Livermore) had implemented
              effective beryllium controls to resolve previously identified
              weaknesses.

SCOPE         We conducted the audit from April 2010 to December 2010 at
              Livermore and the Livermore Site Office, both located in
              Livermore, California; the National Nuclear Security
              Administration's (NNSA) Headquarters, in Washington, DC;
              and, the Department of Energy's (Department) Office of
              Health, Safety, and Security, in Germantown, Maryland. Our
              audit focused on Livermore's beryllium controls and efforts in
              resolving previously identified weaknesses from Fiscal Year
              2007 to December 2010.

METHODOLOGY   To accomplish the audit objective, we:

                       Reviewed applicable Codes of Federal Regulations,
                       internal policies and related prior reports;

                       Reviewed 91 closed actions in the Corrective Action
                       Plan and supporting documentation;

                       Toured various beryllium facilities to observe
                       warning signs and labels; and,

                       Interviewed key Departmental and contractor
                       personnel.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws
              and regulations to the extent necessary to satisfy the audit
              objective. The Department established performance measures
              regarding the beryllium program as required by the
              Government Performance and Results Act of 1993. Because
              our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the
              time of our audit. We did not solely rely on computer-
              generated data to satisfy our objective. Instead, we performed
              other procedures to satisfy ourselves as to the reliability and
              competence of the data by performing facility tours to observe
              postings of beryllium signs. In addition, we confirmed the
              validity of other data, when appropriate, by reviewing
              supporting source documents.

              We held an exit conference with management on June 14, 2011.


Page 14                               Objective, Scope and Methodology
Appendix 2

                                 RELATED REPORTS


National Nuclear Security Administration (NNSA) Report

       Final Report of the NNSA Independent Review of the Lawrence Livermore National
       Laboratory Chronic Beryllium Disease Prevention Program (October 2008). NNSA
       concluded that there were several areas of the Lawrence Livermore National
       Laboratory Chronic Beryllium Disease Prevention Program (CBDPP) that did not
       adequately address the requirements and intent of the Rule. Further, NNSA noted
       that the deficiencies in the documented CBDPP may be contributing to the overall
       program weaknesses, such as minimizing the number of beryllium workers and
       subsequent cases of beryllium sensitizations and/or disease.

Office of Enforcement Investigation Report

       Chronic Beryllium Disease Prevention Program, Lawrence Livermore National
       Security, LLC (July 2009). The investigation concluded that violations of the Rule
       appear to have occurred. Specifically, the potential violations were in the areas of
       baseline inventory, hazard assessment, exposure monitoring, protective clothing and
       equipment, release criteria, medical surveillance, training, and performance
       feedback.

Office of Inspector General Reports

       Beryllium Surface Contamination at the Y-12 National Security Complex (DOE/IG-
       0783, December 2007). The audit found that BWXT Y-12, LLC (BWXT Y-12) had
       not consistently implemented key controls in non-beryllium areas as required by its
       CBDPP. Specifically, BWXT Y-12 had not always posted signs alerting workers to
       the potential for beryllium surface contamination; and performed or documented
       hazard assessments for beryllium contamination, although documented assessments
       were vital to identifying potential exposure risks.

       Beryllium Controls at the Oak Ridge National Laboratory (DOE/IG-0737,
       September 2006). The audit found that the Oak Ridge National Laboratory did not
       properly manage activities related to beryllium contaminated equipment in building
       9201-2, which is located at the Y-12 National Security Complex. In particular,
       beryllium contaminated equipment was transferred to non-beryllium areas;
       employees working with contaminated equipment were not fully identified and
       notified; transferred equipment was not labeled appropriately; and, the building was
       not posted as a potential contamination area.




Page 15                                                                   Related Reports
Appendix 3




Page 16      Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
                                                             IG Report No. DOE/IG-0851

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585
                              ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
